Report No. D-2008-037          December 20, 2007




U.S. Army Corps of Engineers Administration of
Emergency Temporary Roofing Repair Contracts
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACI                   Advance Contracting Initiative
AFARS                 Army Federal Acquisition Regulation Supplement
DCAA                  Defense Contract Audit Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
EFARS                 Engineer Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
FEMA                  Federal Emergency Management Agency
IG                    Inspector General
IR                    Internal Review
NRP                   National Response Plan
PRT                   Planning and Response Team
QA                    Quality Assurance
RoE                   Right of Entry
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE

                             400 ARMY NAVY DRIVE

                        ARLINGTON, VIRGINIA 22202-4704





                                                                     December 20, 2007

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: RepOli on U.S. Army Corps of Engineers Administration of Emergency
         Tempormy Roofing Repair Contracts (Report No. D-2008-037)


      We are providing this report for your infOlmation and use. We considered
management comments on the draft report when preparing the final report.

        Conunents from the Conunander, U.S. Army Corps of Engineers conformed to
the requirements of DoD Directive 7650.3 and left no unresolved issues. Therefore, no
additional comments are required.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah 1. Culp at (703) 604-9335 (DSN 664-9335) or Ms. Diam1a 1. Pearson at
(703) 604-9063 (DSN 664-9063). See Appendix C for the report distribution. The team
members are listed inside the back cover.

                              By direction of the Deputy Inspector General for Auditing:

                           ~Jt2r~4~
                                          Richard B. Jolliffe

                                    Assistm1t Inspector General

                                Acquisition and Contract Management

                    Department of Defense Office of Inspector General
Report No. D-2008-037                                                                December 20, 2007
      (Project No. D2006-D000CG-0081.001)

           U.S. Army Corps of Engineers Administration of Emergency 

                     Temporary Roofing Repair Contracts 


                                        Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers (Corps)
emergency management and contracting personnel should read this report. This report
discusses quality assurance for the temporary roofing mission.

Background. This is the second of two reports discussing the temporary roofing repair
contracts used for emergency situations. We issued DoD Inspector General Report
No. D-2007-038, “U.S. Army Corps of Engineers’ “Operation Blue Roof” Project in
Response to Hurricane Katrina,” on December 22, 2006. The report addressed
Congressmen Bennie G. Thompson’s and Bill Pascrell Jr.’s concerns regarding the award
of temporary roofing repair contracts. This report addresses the administration of the
2005 temporary roofing repair contracts related to the Hurricane Katrina recovery effort
and the award process for the 12 contracts awarded for the 2006 U.S. hurricane season.

The Operation Blue Roof program provides a free temporary roof for residential
structures, schools, day cares, and all publicly owned facilities. These temporary roofs
provide short-term relief until the owner can make permanent repairs. The temporary
roofs also prevent additional damage from occurring to the building and its contents and
may be the difference between a resident remaining in the structure versus seeking
temporary shelter. Following Hurricane Katrina, the Corps oversaw the installation of
more than 62,000 temporary roofs in Louisiana and more than 47,000 temporary roofs
in Mississippi.*

Results. The Corps internal controls were not adequate. We identified an internal
control weakness in the quality assurance procedures for the temporary roofing mission.
The Corps relies on Corps and other Government volunteers to perform the quality
assurance function for the temporary roofing mission. As a result, the Corps may not be
able to inspect damaged and repaired roofs in a timely manner and the Corps could be
subject to overbilling. Developing a formal plan to deploy sufficient numbers of quality
assurance personnel would improve an important internal control and help ensure that the
temporary roofing mission was accomplished more efficiently. We did not consider the
internal control weakness to be material. (See the Finding section of the report for the
detailed recommendation.)

The Corps properly awarded temporary roofing contracts for the 2006 U.S. hurricane
season. The Corps awarded contracts to small and small disadvantaged businesses and


*
    The Corps also oversaw the installation of an additional 18,000 temporary roofs in Louisiana in response
    to Hurricane Rita.
encouraged the use of local contractors. In addition, the Corps awarded the contracts
after adequate competition and price consideration.

Management Comments and Audit Response. The Commander, U.S. Army Corps of
Engineers concurred with the recommendation. The Corps proposed corrective actions to
address the quality assurance problem such as focusing on contractor quality control
procedures, using random sampling methods, and continuing to make use of other
Government agency personnel for the inspection process. The comments were
responsive and no additional comments are required. A discussion of the management
comments is in the Finding section of the report, and the complete text of the comments
is in the Management Comments section.
Table of Contents 

Executive Summary                                                       i


Background                                                              1


Objective                                                               2


Review of Internal Controls                                             2


Finding 

      Quality Assurance Inspectors for the Temporary Roofing Mission    3


Other Matters of Interest
      Congressional Oversight                                          10 

      2006 Temporary Roofing Contracts                                 12 


Appendixes
      A. Scope and Methodology                                         15 

      B. Prior Coverage                                                18 

      C. Report Distribution                                           20 


Management Comments
      U.S. Army Corps of Engineers                                     21 

Background

    This is the second of two reports discussing the temporary roofing repair contracts
    used for emergency situations. We issued DoD Inspector General (IG) Report
    No. D-2007-038, “U.S. Army Corps of Engineers’ “Operation Blue Roof” Project
    in Response to Hurricane Katrina,” on December 22, 2006. The report addressed
    Congressmen Bennie G. Thompson’s and Bill Pascrell Jr.’s concerns about the
    award of temporary roofing repair contracts. The report concluded that the Corps
    generally followed Federal and DoD acquisition regulations when awarding seven
    contracts for temporary roofing repairs for the Hurricane Katrina recovery effort.
    This report addresses the administration of those seven 2005 temporary roofing
    repair contracts and the award process for the 12 contracts awarded for the 2006
    U.S. hurricane season.

    Emergency Guidance. The “Robert T. Stafford Disaster Relief and Emergency
    Assistance Act” (Stafford Act) and the 2004 National Response Plan (NRP)
    provide guidance for Government officials to use during emergency situations.
    The Stafford Act authorizes the President to provide financial and other forms of
    assistance to support response, recovery, and mitigation efforts following
    declared disasters. The 2004 NRP is used to respond to the Presidential
    declarations and provides structure for effective and efficient incident
    management among the Federal, State, and local emergency management
    agencies after a disaster. The 2004 NRP authorized the Federal Emergency
    Management Agency (FEMA), part of the Department of Homeland Security, to
    issue mission assignments. The Corps is primarily responsible for one of the
    15 NRP functions, “Emergency Support Function #3-Public Works and
    Engineering Annex.”

    Advance Contracting Initiative Contracts. To execute a quick response to
    emergencies and disasters, the Corps developed and implemented Advance
    Contracting Initiative (ACI) contracts to use for disaster relief. ACI requirements
    contracts are awarded before disasters occur. These contracts provide Corps
    contracting personnel the ability to place delivery orders after a disaster at the
    prenegotiated rate for supplies and services. Agencies use requirements contracts
    as a method to fill actual needs by placing delivery orders against the contracts.

    Operation Blue Roof. The Corps manages the Operation Blue Roof program,
    which is a priority mission, for FEMA. FEMA funds the Operation Blue Roof
    program through mission assignments. FEMA procures and delivers the blue
    plastic sheeting to staging areas where the Corps then manages distribution and
    installation. The purpose of the temporary roofing program is to move affected
    people out of shelters and return them to their residences as quickly as possible.




                                         1

           The Operation Blue Roof program provides a free temporary roof for residential
           structures, schools, day cares, and all publicly owned facilities. These temporary
           roofs provide short-term relief until the owner can make permanent repairs. The
           temporary roofs also prevent additional damage from occurring to the building
           and its contents and may be the difference between a resident remaining in the
           structure versus seeking temporary shelter. Following Hurricane Katrina, the
           Corps oversaw the installation of more than 62,000 temporary roofs in Louisiana
           and more than 47,000 temporary roofs in Mississippi.*

Objective
           Our overall audit objective was to review the award and the administration of the
           temporary roofing repair contracts for the Hurricane Katrina recovery efforts. We
           limited our review to Corps quality assurance (QA) procedures, followup actions
           to internal audits, and the awarding of follow-on contracts for the 2006 hurricane
           season. See Appendix A for a discussion of the scope and methodology and
           Appendix B for prior coverage related to the objective.

Review of Internal Controls
           We identified an internal control weakness in the quality assurance procedures for
           the temporary roofing mission as defined by DoD Instruction 5010.40,
           “Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006. The
           Corps relies on Corps and other Government volunteers to perform the quality
           assurance function for the temporary roofing mission. The Corps did not have
           procedures in place to ensure that sufficient numbers of quality assurance
           personnel would be available for the temporary roofing mission. We did not
           consider the internal control weakness to be material. Implementing the report
           recommendation should strengthen controls for administering temporary roofing
           repair contracts. See the Finding section of the report for a detailed discussion of
           the internal controls.




*
    The Corps also oversaw the installation of an additional 18,000 temporary roofs in Louisiana in response
    to Hurricane Rita.



                                                       2

           Quality Assurance Inspectors for the
           Temporary Roofing Mission
           The Corps could improve QA procedures for the temporary roofing
           mission. Improvements are needed because the Corps relies on Corps and
           other Government volunteers to perform the QA function and does not
           have a formal plan to ensure that sufficient numbers of QA inspectors are
           available for the temporary roofing mission. As a result, the Corps may
           not be able to inspect damaged and repaired roofs in a timely manner and
           the Corps could be subject to overbilling.

Temporary Roofing Repair

    QA procedures for the temporary roofing mission require improvement because
    the Corps does not have standard operating procedures for ensuring that sufficient
    numbers of personnel are available to perform the QA function. The Government
    QA inspections provide an important internal control over the temporary roofing
    repair process. The Government is responsible for providing quality assurance
    and the contractor is responsible for providing quality control.

    Roofing Process. QA inspectors are an important internal control over the
    temporary roofing mission. The temporary roofing repair process starts with a
    request from the homeowner or an authorized representative to repair a damaged
    roof. A Corps or other Government representative prepares a Right of Entry
    (RoE) that authorizes access to the property. Next, a Corps QA inspector visits
    the location and prepares an estimate of the work required. The Corps then gives
    the RoE to the contractor to begin work, using FEMA-supplied plastic to make
    the roofing repair. When a roof installation is complete, the contractor quality
    control inspector and the Government QA inspector examine the repaired roof
    and record and verify the actual amounts of material used. By comparing the
    estimate with the final measurements, the QA inspector can determine whether
    contractor personnel used a reasonable amount of materials to properly install a
    roof. Corps personnel enter the agreed-on amounts into the RoE master
    database. When the contractor requests payment, Corps personnel compare the
    information on the payment invoice with the information contained in the master
    database.

    Quality Assurance. The Government performs QA to ensure that installed
    temporary roofing is in agreement with the contract requirements. QA personnel
    inspect contractor work for quality, safety, and accuracy. Before installation, QA
    inspectors verify the eligibility status of a home and estimate the amount of
    materials required for a temporary roof installation. After installation, QA
    inspectors then inspect and verify the contractor’s work for quality and accuracy


                                         3

    in supplies required. Verification includes the comparison of QA estimates with
    actual measurements taken from the completed roof installation. In addition, QA
    personnel verify contractor quality control.

    Quality Control. The prime contractor is responsible for quality control.
    Quality control ensures that the contractor’s repair process, including work
    performed by subcontractors, complies with contractual requirements. A
    contractor submits a quality control plan that specifies the methods the contractor
    will use to ensure that workers properly install temporary roofs.

QA Guidance

    The Corps did not have standard operating procedures for ensuring enough QA
    inspectors are available for the temporary roofing mission. Instead the Corps
    relies on Corps and other Government employees who volunteer to work as QA
    inspectors. The current temporary roofing guidance provides procedures for
    establishing Planning and Response Teams (PRT) and performing the mission on
    a daily basis; however, the Corps had no standard operating procedures for
    mobilizing the large number of QA inspectors called for in the handbook
    estimates.

    Planning and Response Team. The “U.S. Army Corps of Engineers Disaster
    Guidebook- Temporary Roofing” (Disaster Guidebook) provides guidance for the
    temporary roofing mission including roles and responsibilities of the PRT
    members. The PRT consists of 19 people including two QA supervisors.
    Roofing PRTs are located in the Districts of Jacksonville, Florida; Omaha,
    Nebraska; Nashville, Tennessee; Little Rock, Arkansas; and St. Louis, Missouri.
    The Northwestern Division is the lead for the Temporary Roofing program. PRTs
    are placed on alert when there is an imminent threat that could result in FEMA
    mission assignments. Some PRT members deploy in advance of the disaster
    declaration in order to be on-site immediately after the disaster strikes. The
    number of PRTs activated is dependent on the magnitude of the event. The
    Disaster Guidebook identifies the 12 positions on the Roofing PRT. Although
    QA supervisors are part of the team, QA inspectors are not assigned to the roofing
    PRTs. Table 1 provides a listing of PRT positions.




                                         4

           Table 1. Composition of Roofing PRT and Deployment Timeline

                  Title               Deployed Before       Deployed After        Total
                                         Disaster              Disaster
                                        Declaration          Declaration
      Action Officer                         1                    0                 1
      Mission Manager                        1                    0                 1
      Mission Specialist                     2                    1                 3
      Contract Specialist                    1                    0                 1
      Resident Engineer                      1                    1                 2
      Real Estate Specialist                 1                    1                 2
      Logistics                              1                    1                 2
      Administrative Assistant               1                    1                 2
      Geographic Information System          0                    1                 1
      Specialist
      Database Manager                       1                      0                1
      Information Management                 1                      0                1
      QA Supervisor                          1                      1                2
      TOTAL                                 12                      7               19

Assignment of QA Inspectors. The Disaster Guidebook uses Hurricane Emily as
an example of how many QA inspectors are needed for a roofing mission of 6,000
temporary roof installations. The estimate in Table 2 assumes that for a 6,000 roof
repair requirement, between 35 and 111 QA inspectors would be required per day
to perform a temporary roofing mission in the allotted time of 2 planning days and
13 work days. The model assumed that a QA inspector could average 7 RoEs and
inspect 15 roofs per day. However, the Disaster Guidebook did not specify
procedures to ensure that sufficient numbers of QA inspectors are available.
            Table 2. Estimate of QA Inspectors Needed for 6,000 Roofs
         Roofs
          per      Roofs        QA       QA           QA          RoEs         RoEs       Total
Day       day    Remaining     RoEs   Inspectors   Supervisors   Collected   Remaining    QAs
T-1        0         0          75         0           4           525         5475        79
T-0        0       6000         75         0           4           525         4950        79
 1        100      5900         75         6           4           525         4425        85
 2        200      5700         75        12           5           525         3900        92
 3        300      5400         75        18           5           525         3375        98
 4        400      5000         75        24           5           525         2850       104
 5        500      4500         75        30           5           525         2325       110
 6        500      4000         75        30           6           525         1800       111
 7        500      3500         75        30           6           525         1275       111
 8        500      3000         75        30           6           525          750       111
 9        500      2500         75        30           6           525          225       111
10        500      2000         34        30           5           225           0         69
11        500      1500          0        30           5             0           0         35
12        500      1000          0        30           5             0           0         35
13        500       500          0        30           5             0           0         35


                                          5

    In 2005, the missions in Florida, Mississippi, Louisiana, and Texas each required
    between 400 and 500 QA personnel at their peaks. During the Katrina recovery
    effort, the Corps relied on Corps employees who had volunteered to be QA
    inspectors. The Corps also used personnel from other Government agencies such
    as the Bureau of Reclamation and the National Park Service. In addition, the
    Corps used contractor personnel from existing architect and engineering
    contracts. Still, shortages occurred.

    Katrina QA Shortages. The Engineer Inspector General for the Corps and
    Corps internal review (IR) personnel acknowledged that the availability of QA
    inspectors was a problem following Hurricane Katrina. Corps IR and Defense
    Contract Audit Agency (DCAA) personnel were on-site during the repair process
    and noted various QA problems. One report stated that during the first few days
    of RoE operations in Mississippi, the large number of requests coupled with a
    lack of trained QA inspectors created a backlog in the QA estimation process. A
    temporary roofing action officer estimated that at one point, only about 30 percent
    of the 190 required QA personnel were available. To expedite the roof repairs,
    contractors were sometimes given RoEs without initial estimates because not
    enough QA inspectors were available.

    Reason for Shortage. The Corps relies primarily on Corps personnel who
    volunteer for the QA mission. The volunteers’ home districts absorb the
    additional workload from the deployed volunteers. QA volunteers may also be
    assigned to other missions that require deployment and may not be available for
    the temporary roofing mission. In addition, the QA function can be physically
    demanding. Corps personnel also cited a shortage of living accommodations
    following Katrina as an impediment to deploying QA inspectors.

Importance of QA

    The QA process is an important internal control over the temporary roofing
    process. Corps personnel recognized that a shortage of QA inspectors could
    affect the roofing mission. However, as of September 2007, the Corps had not
    taken action to address the problem.

    Internal Control. Without sufficient numbers of QA inspectors, the Corps may
    not be able to properly inspect damaged and repaired roofs in a timely manner
    and the Government could incur unnecessary additional costs. The QA process is
    an important internal control over the temporary roofing process. Before a roof is
    installed, QA inspectors review the RoE and visit the property to determine
    whether a property qualifies for a temporary roof. If the property qualifies, then
    the QA inspector prepares an initial estimate of the work required before any
    contractor crew can begin work.



                                         6

The initial estimate is used for multiple purposes. The contractor uses the
estimated quantities to draw plastic sheeting and other material from storage.
After the job is complete, the estimate is used to compare the contractor’s actual
work with what the QA initially estimated to complete the job. The final QA site
visit may not occur until days after the contractor installed the temporary roof.
As such, the estimated quantity is a final check to determine whether the
contractor completed the work using a reasonable quantity of materials necessary
to cover only the damaged portion of a roof. However, without an initial
estimate, the QA inspector may not be able to determine the extent of the damage
and whether the contractor used the proper amount of material for the repair. This
determination is important because contractors are paid primarily on the amount
of material installed. A shortage of QA inspectors could result in contractors:

       •	 installing roofs on nonqualifying structures;
       •	 using more material than necessary; and

       •	 improperly installing roofing material, resulting in rework and lost
          time.

In addition, a shortage of QA inspectors could result in contractors being unable
to work at the full performance level of 500 roof repairs per day. Thus, the
Government would be paying for excess capacity on the temporary roofing
contracts.

Corps Efforts. The Corps Remedial Action Plan for the 2005 hurricane season
noted the QA problem, as did Corps personnel on-site during the recovery effort.
The Corps Northwestern Division is the lead office for the temporary roofing
mission. Northwest Division Emergency Management personnel stated that the
Corps was considering options to address the problem. One option was to better
enforce the contractor quality control requirements in the contract, possibly
lessening the QA inspection time for temporary roof repairs. A second option
was to award an ACI contract for QA inspectors for the roofing mission. Corps
personnel expressed concern that QA is an inherently governmental function.

Inherently Governmental Function. Corps personnel expressed concern about
using contractors as QA inspectors. QA inspectors approve the quality of the
work and the amount of material used; thus, the QA inspectors are accepting the
contractor’s product. Federal Acquisition Regulation (FAR) Part 7.5, “Inherently
Governmental Functions,” provides a list of examples of inherently governmental
functions. Example 12(v) identifies administering contracts (including ordering
changes in contract performance or contract quantities, taking action based on
evaluations of contractor performance, and accepting or rejecting contractor
products or services) as inherently governmental functions. However, FAR
7.503(d), “Policy,” provides a list of examples of functions generally not


                                     7

considered to be inherently governmental functions. Number 17 states that
contractors providing inspection services is not an inherently governmental
function. It also states that the services listed may approach being inherently
governmental because of the nature of the function, the manner in which the
contractor performs the contract, or the manner in which the Government
administers contractor performance. The Defense Federal Acquisition Regulation
Supplement (DFARS) Subpart 207.5, “Inherently Governmental Functions,”
contains additional guidance allowing the head of an agency to enter into a
contract for performance of the acquisition functions that are listed at FAR
7.503(d) only if:

       (i) The contracting officer determines that appropriate military or
       civilian DoD personnel—

          (A) Cannot reasonably be made available to perform the functions;

          (B) Will oversee contractor performance of the contract; and

          (C) Will perform all inherently governmental functions associated
       with the functions to be performed under the contract; and

       (ii) The contracting officer ensures that the agency addresses any
       potential organizational conflict of interest of the contractor in the
       performance of the functions under the contract.

Plans for 2007. Corps Mobile District personnel and personnel from the
Jacksonville District temporary roofing PRT stated that they again plan to rely on
Corps volunteers and other Government agency volunteers for the 2007 hurricane
season. In addition, the Corps may use personnel from existing architect and
engineering contracts or award contracts for QA inspectors early in the response
period.

Northwest Division. In September 2007, Corps Northwest Division personnel
responsible for the temporary roofing mission agreed that deploying sufficient
numbers of QA personnel is a problem. They are considering several options but
are focusing on lessening the number of Government QA inspectors that would be
required by better enforcing contractor quality control requirements, altering
material measurement procedures, and performing final inspections by using
statistical sampling techniques. In addition, the Corps is considering adding five
QA inspectors to the roofing PRTs to perform initial inspections to ramp-up
roofing repairs faster. However, Corps personnel cited limited emergency
preparedness funding as an obstacle to implementing changes to the roofing
program. As of October 2007, the Corps had not implemented any of the options.




                                         8

Conclusion
    Following Hurricane Katrina, the Corps oversaw the installation of more than
    62,000 temporary roofs in Louisiana and more than 47,000 temporary roofs in
    Mississippi. According to the standard operating procedures for temporary
    roofing, each roof repair required an inspection by a Government representative
    before and after the repair. As of September 2007, the Corps did not have
    standard operating procedures for ensuring that sufficient numbers of QA
    inspectors are available for the temporary roofing mission. A shortage of QA
    inspectors can slow the response time, and it weakens an important internal
    control over the temporary roofing process.
Recommendation, Management Comments, and Audit
  Response
    We recommend that the Commander, U.S. Army Corps of Engineers develop
    and implement procedures to ensure sufficient numbers of quality assurance
    inspectors are available to meet contract requirements for the temporary
    roofing mission.

    Management Comments. The Chief Audit Executive for the Headquarters
    Internal Review Office, U.S. Army Corps of Engineers, responding for the
    Commander, concurred with the recommendation. The Corps acknowledged that
    a shortage of QA inspectors was a problem. The Corps proposed corrective
    actions to address the QA problem such as focusing on the effectiveness of
    contractor quality control procedures, using random sampling methods, and
    continuing to make use of other Government agency personnel for the inspection
    process. The Corps is also performing an evaluation of other staffing
    requirements for the temporary roofing mission such as Right of Entry collection,
    assessment of damage, and installation inspection. The Corps stated that
    corrective actions would be addressed at the standard operating procedures
    Writing Workshop in January 2008.

    Audit Response. The comments were responsive. When implemented, the
    Corps proposed actions should improve an important internal control over the
    roofing mission. The Corps was aware of QA problems during the response to
    Hurricane Katrina in 2005. However, the Corps had not implemented a formal
    plan as of November 2007. We must reiterate the importance of the Corps having
    a formal plan in place prior to the 2008 hurricane season.




                                        9

Other Matters of Interest

     We reviewed issues discussed during congressional hearings by the House
     Committee on Government Reform in May 2006. We also reviewed contracts
     awarded for emergency temporary roofing repair for the 2006 hurricane season to
     determine whether the new contracts addressed issues identified in the initial
     congressional audit request.

Congressional Oversight

     In a May 2006 statement and memorandum, Congressman Henry A. Waxman
     stated that Corps IR and DCAA reports disclosed fraud, waste, abuse, and
     mismanagement of the Katrina recovery effort. Congressman Waxman
     specifically cited the Corps’ “Operation Blue Roof” contracts, stating that the
     reports identified two main problems: overbilling and failure to properly manage
     subcontractors.

     Corps Real-Time Oversight. Immediately following Hurricane Katrina, Corps
     IR and DCAA personnel were on-site in Louisiana and Mississippi to provide
     real-time audit support of the recovery effort. The review teams observed
     Government and contractor personnel performing the temporary roofing and other
     missions and prepared field reports that noted discrepancies. They provided the
     reports to Corps contracting and operations personnel responsible for taking
     corrective action. The teams provided an additional internal control over the
     temporary roofing mission.

     From September 14, 2005, through June 24, 2006, the Corps IR and DCAA
     personnel issued more than 150 reports concerning temporary roofing in
     Louisiana and Mississippi. The reports identified problems primarily in the areas
     of quality control, billing, payroll, and safety. The reports identified problems
     such as RoEs with inaccurate estimates, blue tarp installations that failed
     inspection, contractors that covered more roofing area than needed, and
     contractors that failed to inspect completed repairs. Shortly after the May 2006
     congressional hearings, we visited the Louisiana Recovery Field Office to
     determine what corrective actions the Corps had taken to address the issues
     identified in Corps IR and DCAA reports.

     Corrective Actions. Our review of temporary roofing files at the Louisiana
     Recovery Field Office indicated that the Corps took corrective actions to address
     discrepancies identified in the Corps IR and DCAA reports. Project files
     contained letters and e-mails between Corps contracting personnel and
     contractors notifying the contractors of the deficiencies and requesting corrective
     action plans. The files also contained weekly letters to the Commander


                                         10 

identifying issues raised in the IR and DCAA reports. The progression of the
Commander’s letters over the months often indicated improvements in areas such
as safety, quality, and submitting certified payrolls. Although it appears that the
Corps took corrective actions, we could not determine through the documentation
that such actions resulted in a final solution to all issues reported in the Corps IR
and DCAA reports.

Corps personnel stated that in many instances, people took corrective action to
immediately address the issue but failed to document the corrective actions.
Personnel from different Corps district offices as well as some retired Corps
personnel rotated in and out of the recovery field offices during the cleanup effort.
Thus the person who wrote the report or the person who took corrective action
may have rotated out of the field office before documenting what occurred. In
October 2007, Corps IR personnel provided us a spreadsheet that they plan to use
to track corrective actions taken in future disaster responses. The spreadsheet
should help in tracking corrective actions taken in response to discrepancies.

Subcontractor Oversight. The Corps IR and DCAA reports noted instances of
the prime contractors failing to properly manage their subcontractors. For
example, prime contractors did not always perform quality control inspections of
completed roofs. As a result, Government QA inspectors found roofs that had not
been completed or that required rework. In addition, some of the reports cited
problems in ensuring that subcontracted workers were paid properly.

The prime contractors in Louisiana and Mississippi used subcontractors
extensively during the Katrina temporary roofing mission. Each of the 5 large
business prime contractors used between 6 and 52 first-tier subcontractors. Many
of the prime contractors subcontracted with second-tier contractors who might
have then subcontracted the work to a lower tier. Following Hurricane Katrina,
Corps IR and DCAA reports and Government hearings identified concerns
regarding the extent of subcontracting in the temporary roofing mission.
Concerns included additional costs resulting from multiple tiers of subcontractors.

Subcontracting Costs. In January 2007, the Government Accountability Office
(GAO) announced GAO Engagement No. 120613, “Pass-through Charges in
Defense Department Contracts or Subcontracts.” The engagement was required
by Public Law 109-364, “The National Defense Authorization Act of FY 2007,”
section 852. The following statements are two objectives of GAO Engagement
No. 120613.

       •	 Address the extent to which DoD has paid excessive pass-through
          charges to contractors who provided little or no value to the
          performance of the contract.




                                     11 

           •	 Determine the extent to which any prohibition on excessive pass-
              through charges would be inconsistent with existing commercial
              practices for any specific category of contracts or have an unjustified
              adverse effect on any specific category of contractors (including any
              category of small business).

    The legislation specifically excluded fixed-price contracts awarded after adequate
    competition, such as those used for temporary roofing repair.

2006 Temporary Roofing Contracts

    Our first report, DoD Inspector General Report No. D-2007-038, “U.S. Army
    Corps of Engineers’ “Operation Blue Roof” Project in Response to Hurricane
    Katrina,” December 22, 2006, addressed the award of temporary roofing contracts
    for the 2005 hurricane season. The Corps awarded those contracts using
    expedited procurement practices. For this, our second report, we examined the
    award of the temporary roofing contracts for the 2006 hurricane season to
    determine whether the Corps addressed concerns noted during our first audit.
    Specifically, we reviewed whether the contracts for the 2006 hurricane season:

           •	 encouraged awards to small and disadvantaged business and the use of
              local and small businesses,

           •	 considered contractor pricing, and

           •	 addressed subcontracting concerns.

    On November 30, 2005, the Corps Mobile District office issued solicitation
    W91278-06-R-0007 for indefinite-delivery, indefinite-quantity contracts for
    temporary roof repairs in 10 states: Maryland, Virginia, North Carolina, South
    Carolina, Georgia, Florida, Alabama, Mississippi, Louisiana, and Texas. From
    March 17 through May 24, 2006, the Corps Mobile District office awarded
    12 contracts for temporary roofing. The contracts were for the 2006 hurricane
    season with two option years. Seven contracts were 8(a) set-asides, three
    contracts were unrestricted, one contract was a Service-Disabled Veteran-Owned
    Small Business award, and one contract was a Historically Underutilized
    Business Zone set-aside award.

    Small and Small Disadvantaged Businesses. The Corps provided ample
    opportunity for small and small disadvantaged businesses. The solicitation
    specified one set-aside contract for a Service-Disabled Veteran-Owned Small
    Business, one set-aside contract for a Historically Underutilized Business Zone
    contractor, and two set-aside contracts per state for small disadvantaged
    businesses. In addition, all large businesses were required to submit


                                        12 

    subcontractor plans for the use of small and disadvantaged businesses. All
    contracts were subject to the Stafford Act, which directs that businesses or
    individuals who live or work in the area that is affected by a disaster be given
    preference to the extent practicable.

    Contract Price. The Corps awarded the 12 fixed-price contracts for temporary
    roofing after adequate competition and price consideration. The Corps received
    66 proposals for the 12 contracts. Only qualifying proposals with the lower prices
    were passed to the source selection team. However, price was not the primary
    determination of contract award. Because the Corps intended to award fixed-
    price contracts, the source selection process did not require the contractor to
    submit cost or pricing information.

    The FAR encourages the use of fixed-price contracts because it limits the risk to
    the Government. FAR Subpart 16.2, “Fixed Price Contracts,” states:

           A firm-fixed-price contract provides for a price that is not subject to
           any adjustment on the basis of the contractor’s cost experience in
           performing the contract. This contract type places upon the contractor
           maximum risk and full responsibility for all costs and resulting profit
           or loss. It provides maximum incentive for the contractor to control
           costs and perform effectively and imposes a minimum administrative
           burden upon the contracting parties.

    In addition, FAR Subpart 15.4, “Contract Pricing,” discourages the Government
    from obtaining contractor cost or pricing data when adequate price competition
    exists.

    Subcontracts. The temporary roofing contracts awarded for 2006 hurricane
    season did not provide significant new requirements for subcontracting. The
    contracts specified that the prime contractor employees must perform at least
    20 percent of the contract work and included standard requirements to submit
    contractor quality control plans. However, the contracts did not place any
    restrictions on the extent of subcontracting to lower tiers.

Conclusion

    The Corps IR and DCAA real-time oversight was an effective internal control
    over the temporary roofing mission during the Katrina recovery effort. Corps IR
    and DCAA personnel were effective at identifying problem areas; however, we
    could not always determine from the project documentation whether the
    corrective actions alleviated the discrepancies noted in the reports. Better
    documentation of corrective actions would increase the effectiveness of the
    internal control.




                                             13 

    The contracts awarded for the 2006 hurricane season and in place for 2007 and
    2008 addressed some of the concerns raised during our first audit. The Corps
    Mobile District awarded contracts that provided ample opportunities for small and
    small disadvantaged businesses and encouraged the use of local contractors. In
    addition, the Corps awarded the contracts after adequate competition and price
    consideration. However, the contracts did not contain significant limitations on
    subcontracting.

Management Comments on Other Matters of Interest and
 Audit Response

    Management Comments. The Chief Audit Executive for the Headquarters
    Internal Review Office, U.S. Army Corps of Engineers, responding for the
    Commander, stated that although the Corps cannot limit the amount of
    subcontractor layering on a given contract, the Corps is considering other means
    of addressing the issue. For example the Corps is considering reducing the daily
    production rate of each contractor and also requiring the contractor to perform a
    percentage of the work using in house forces to limit the amount of layering.

    Audit Response. We agree that the prime contractors’ use of a several second
    and lower level subcontractors caused problems following Hurricane Katrina.
    However, the number of subcontractors also allowed the prime contractors to
    ramp up quickly and effectively help the Corps to accomplish the temporary
    roofing mission of repairing roofs so that people could return to their residences
    as quickly as possible. The Corps’ plan to focus on the effectiveness of
    contractor quality control procedures, as stated in their comments on the
    recommendations, will reduce some of the problems with subcontractor layering.




                                        14 

    Appendix A. Scope and Methodology
    We performed this performance audit starting in August 2006. We suspended the
    audit from June 2007 through July 2007 to participate in a higher priority audit.
    We completed this audit in September 2007. We conducted the audit in
    accordance with generally accepted government auditing standards. Those
    standards require that we plan and perform the audit to obtain sufficient,
    appropriate evidence to provide a reasonable basis for our findings and
    conclusions based on our audit objectives. We believe that the evidence obtained
    provides a reasonable basis for our findings and conclusions based on our audit
    objectives.

    We originally conducted an audit to review the award of the temporary roofing
    contracts at the request of Congressmen Thompson and Pascrell Jr. DoD IG
    Report No. D-2007-038, “U.S. Army Corps of Engineers’ “Operation Blue Roof”
    Project in Response to Hurricane Katrina,” December 22, 2006, addressed
    Congressmen Thompson and Pascrell Jr.’s concerns and addressed the pre-award
    and the award process. Additionally, the report stated that a second report would
    be issued, addressing issues related to the administration of temporary roofing
    contracts. For the second report, we reviewed contract administration of the 2005
    temporary roofing contracts listed in Table A-1.

           Table A-1. Contracts Awarded for the 2005 Hurricane Season


                                                          Period of          Award Value
   Contract
                     Contractor        Award Date        Performance         (in millions)
   Number
  W912P9-05-     Shaw Constructors,                     July 8, 2005–
                                       July 8, 2005                      $       10.0
   D-0515                Inc.                           Dec. 31, 2005
  W912P9-05-    Carothers/Aduddull,                     Sept. 2, 2005–
                                      Sept. 2, 2005                              10.0
   D-0518         A Joint Venture                       Dec. 31, 2005
                        Ceres
  W912P9-05-                                            Sept. 4, 2005–
                   Environmental      Sept. 4, 2005                              10.0
   D-0520                                               Dec. 31, 2005
                    Services, Inc.
 W912P9-05-         LJC Defense                         Sept. 4, 2005–
                                      Sept. 4, 2005                              10.0
  D-0521          Contracting, Inc.                     Dec. 31, 2005
 W912P9-05-      Simon Roofing and                      Sept. 4, 2005–
                                      Sept. 4, 2005                              10.0
  D-0522         Sheet Metal Corp.                      Dec. 31, 2005
 W912EE-06-           S&M and                           Oct. 4, 2005–
                                       Oct. 4, 2005                              12.0
  D-0001           Associates, Inc.                     Dec. 31, 2005
  W912P9-06-                                            Oct. 18, 2005–
                    Ystueta, Inc.     Oct. 18, 2005                              50.0
   D-0505                                               Dec. 31, 2005
Total                                                                    $      112.0




                                       15 

         We reviewed the source selection and award of the 2006 through 2008 Blue Roof
         contracts awarded out of the Corps Mobile District (Table A-2), QA practices,
         and the Corps’ corrective actions to address discrepancies identified in the Corps
         IR and DCAA “real time audits,” inspections, and reviews. Because temporary
         roofing repair work was substantially completed by November 2005 and Corps
         personnel had returned to their home districts, we limited our review to
         performance documentation obtained during the initial audit and to the temporary
         roofing contracts awarded for the 2006 through 2008 hurricane seasons.

                  Table A-2. Contracts Awarded for the 2006 Hurricane Season
     Contract Number            Contractor              Award Date          Not to           Type of         State
                                                                            Exceed           Award          Coverage
                                                                         (in millions)

    W91278-06-D-0047           S&M and                 May 19, 2006      $   100.0          HubZone1        All 10
                            Associates, Inc.                                                                States2
    W91278-06-D-0056     Acme Roofing & Sheet         August 2, 2006         100.0          SDVOB3          All 10
                           Metal Co., Inc./ITS                                                              States2
    W91278-06-D-0048      Campbell Roofing &           May 23, 2006          100.0        Unrestricted      All 10
                           Construction, Inc.                                                               States2
    W91278-06-D-0049           Carothers               May 23, 2006          100.0        Unrestricted      All 10
                           Construction, Inc.                                                               States2
    W91278-06-D-0051      Ceres Environmental          May 24, 2006          100.0        Unrestricted      All 10
                              Services, Inc.                                                                States2
    W91278-06-D-0027           S&M and                March 17, 2006          25.0            8(a)         Mississippi
                            Associates, Inc.                                                set-aside
    W91278-06-D-0031        Crown Roofing             March 20, 2006          25.0            8(a)            Texas
                              Services, Inc.                                                Set-aside
    W91278-06-D-0028        Crown Roofing             March 22, 2006          25.0            8(a)          Louisiana
                              Services, Inc.                                                Set-aside
    W91278-06-D-0033      Carter’s Contracting        March 24, 2006          25.0            8(a)          Alabama
                              Services, Inc.                                                Set-aside
    W91278-06-D-0046     R.L. Campbell Roofing         May 19, 2006           25.0            8(a)           Florida
                             Company, Inc.                                                  Set-aside
    W91278-06-D-0045       Pete & Ron’s Tree           May 19, 2006           25.0            8(a)           Florida
                              Service, Inc.                                                 Set-aside
    W91278-06-D-0044     MGC/Campbell Roofing          May 24, 2006           25.0            8(a)           Georgia
                          & Construction, Inc.                                              Set-aside
Total                                                                      $ 675.0
1
  Historically Underutilized Business Zone
2
  Contract coverage is for performance in any or all of the states of Maryland, Virginia, North Carolina, South
 Carolina, Georgia, Florida, Alabama, Mississippi, Louisiana, and Texas
3
  Service-Disabled Veteran-Owned Small Business


         We reviewed the “Homeland Security Act of 2002”; “Robert T. Stafford Disaster 

         Relief and Emergency Assistance Act,” amended October 30, 2000; FAR Part 4, 

         “Administrative Matters”; FAR 5.203, “Publicizing and Response Times”; 

         FAR Part 7, “Acquisition Planning”; FAR Part 15, “Contracting by Negotiation”; 

         FAR Part 16, “Types of Contracts”; FAR Part 19, “Small Business Programs”; 



                                                      16
FAR Subpart 36.2, “Special Aspects of Contracting for Construction”; Engineer
Federal Acquisition Regulation Supplement (EFARS) Subpart 7.1, “Acquisition
Plans”; EFARS Subpart 19.5, “Set-Asides for Small Business”; DFARS Subpart
219.5, “Set-Asides for Small Business”; DFARS Part 207, “Acquisition
Planning”; Army Federal Acquisition Regulation Supplement (AFARS) Part
5107, “Acquisition Planning”; AFARS Subpart 5119.502, “Setting Aside
Acquisitions”; “2004 National Response Plan”; “Emergency Support Function
#3-Public Works and Engineering Annex”; and “Emergency Support Function
#6-Mass Care, Housing, and Human Services Annex.”

We also reviewed the “United States Army Corps of Engineers Disaster
Guidebook,” October 1999, May 2000, and June 2006 editions; “Operations
Order 2006-25 USACE Support to National Response Plan” (All Hazards
OPORD 2006); and documentation pertaining to Hurricane Katrina recovery
efforts.

We obtained and reviewed contract documentation such as the acquisition plan,
purchase request, contractor bidding schedules, and source selection and
evaluation documentation for the 12 temporary roofing contracts awarded in
2006. In addition, we reviewed Corps standard operating procedures as well as
the corrective actions taken by the Corps in response to the August 15, 2005
through June 24, 2006 field reports prepared by Corps IR and DCAA personnel.

We interviewed personnel at five Corps office locations (Corps Headquarters,
Washington, D.C.; Mobile District office, Mobile, Alabama; Jacksonville District
office, Jacksonville, Florida; Northwest Division, Portland, Oregon; and Omaha
District office, Omaha, Nebraska) to determine their involvement and
understanding of the Operation Blue Roof contracts. Contacts included personnel
from contracting, emergency management, and internal review.

Use of Computer-Processed Data. We used data generated from the Corps’
Headquarters and Mobile District offices for informational purposes. We did not
assess the reliability of computer-processed data because the data were not a basis
for our conclusions or finding.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Contract Management high-risk area.




                                    17 

Appendix B. Prior Coverage
      During the past 5 years, GAO has published two testimonies and the DoD IG, the
      Army Audit Agency, and the Naval Audit Service have issued nine reports
      relating to the contracts for Hurricane Katrina recovery efforts. Unrestricted
      GAO testimonies can be accessed over the Internet at http://www.gao.gov.
      Unrestricted DoD IG, Army, and Navy reports can be accessed at
      http://www.dodig.mil, http://www.hqda.army.mil/aaaweb/, and
      http://www.hq.navy.mil/NavalAudit, respectively.

GAO
      GAO Testimony No. GAO-06-714T, “Improving Federal Contracting Practices in
      Disaster Recovery Operations,” May 4, 2006

      GAO Testimony No. GAO-06-622T, “Planning for and Management of Federal
      Disaster Recovery Contracts,” April 10, 2006

DoD IG
      DoD IG Report No. D-2007-118, “Contract Administration of the Ice Delivery
      Contract Between International American Products, Worldwide Services and the
      U.S. Army Corps of Engineers During the Hurricane Katrina Recovery Effort,”
      August 24, 2007

      DoD IG Report No. D-2007-055, “Contract Administration of the Water Delivery
      Contract Between the Lipsey Mountain Spring Water Company and the United
      States Army Corps of Engineers,” February 5, 2007

      DoD IG Report No. D-2007-038, “U.S. Army Corps of Engineers’ “Operation
      Blue Roof” Project in Response to Hurricane Katrina,” December 22, 2006

      DoD IG Report No. D-2006-116, “Ice Delivery Contracts Between International
      American Products, Worldwide Services and the U.S. Army Corps of Engineers,”
      September 26, 2006

      DoD IG Report No. D-2006-109, “Response to Congressional Requests on the
      Water Delivery Contract Between the Lipsey Mountain Spring Water Company
      and the United States Army Corps of Engineers,” August 29, 2006




                                        18 

Army Audit Agency
     Army Audit Agency Report No. A-2007-0016-FFD, “Debris Removal Contracts,”
     November 9, 2006

     Army Audit Agency Report No. A-2006-0198-FFD, “Contracts for the Hurricane
     Protection System in New Orleans,” August 22, 2006

Naval Audit Service
     Naval Audit Service Report No. N2007-0021, “Hurricane Relief Funds for
     Military Family Housing Construction at Gulfport and Stennis Space Center,
     Mississippi,” March 27, 2007

     Naval Audit Service Report No. N2006-0015, “Chartered Cruise Ships,”
     February 16, 2006




                                       19 

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army, (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, United States Army Corps of Engineers

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Oversight and Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Committee on Homeland Security


                                          20 

U.S. Army Corps of Engineers Comments



                              DEPARTMENT OF THE ARMY
                                U.S. ARMY C O R P S OF E N G I N E E R S
                                         441 G ST. NW
                                  WASHINGTON, D.C. 20311-1000




     CEIR (36-5e)                                                          30 November 2007

     MEMORANDUM FOR Inspector General, Department of Defense, 400
     Army Navy Drive, Arlington, Virginia 22202-4704

     SUBJECT; Report on U. S. Army Corps of Engineers Administration of
     Emergency Temporary Roofing Repair Contracts (Project No. D2006-
     D000CG-0081.001)

     1. Reference DoDIG Memo, subject as above, 1 November 2007.

     2. Our comments on the recommendation contained in the subject draft
     report are attached.

     3. Please contact either Ms. Alicia Matias (202-761-4573) or Ms. Donna F.
     Johnson (202-761-8518) if you have questions.

     FOR THE COMMANDER:




     End                                     DONNA F. JOHNSON
     As                                      Acting Chief Audit Executive
                                             HQ USACE Internal Review Office
     CF:
     CECW-HS
     CECT




                                                 21
  U. S. ARMY CORPS OF ENGINEERS COMMAND COMMENTS
 ON DODIG Report on Administration of Emergency Temporary
 Roofing Repair Contracts (Project No. D2006-D000CG-0081.001)

                             COMMAND RESPONSE
RECOMMENDATION: We recommend that the Commander, U. S. Army Corps of
Engineers develop and implement procedures to ensure sufficient numbers of quality
assurance inspectors are available to meet contract requirements for the temporary
roofing mission.

Management Comments: Concur.

       The lack of Contractor Quality Control (CQC) and the shortage of Quality
Assurance (QA) inspectors have been identified by this report, internally by after action
reviews and by Defense Contract Audit Agency (DCAA) audits. The Corps' inspection
process in the past focused on inspection of the actual installation of the temporary roof
and not the effectiveness of the CQC responsibilities that were part of the contracts.
Joint inspections by the contractor's representative and a Corps (Federal Employee) QA
allowed contractors to skip any quality control inspections prior to the joint inspection as
any deficiencies would be caught by the Corps QA, This inspection process was costly
and required large numbers of trained QAs.

        USACE is now developing a new inspection process that will focus more on
evaluating the effectiveness of the CQC Plan, using QAs to perform random sampling
after the contractor has notified Corps that the installation has been inspected for quality
and measured for payment. This will significantly reduce the numbers of QAs needed to
perform installation inspections and also reduce the overall number of QAs to perform
the temporary roofing mission.

       It should be noted that the Corps continues to work with other agencies (i.e.
Bureau of Reclamation) to provide significant numbers of Federal QA Inspectors to
supplement the QA requirements for this and other missions following major or
catastrophic disasters.

       In conjunction with improving the inspection process, USACE is also performing
an evaluation of the total manpower requirements for various aspects of the temporary
roofing mission, such as Right of Entry collection, assessment of damage and installation
inspection. These manpower requirements will then be used to develop a standardized
operating procedure (SOP) for manpower resourcing of the temporary roofing mission
during an event response. New procedures will be addressed by Corps at the SOP
Writing Workshop in January 2008.




                                            22
  U. S. ARMY CORPS OF ENGINEERS COMMAND COMMENTS
 ON DODIG Report on Administration of Emergency Temporary
 Roofing Repair Contracts (Project No. D2006-D000CG-0081.001)
                          ADDITIONAL COMMENT
Reference Page 14. after Conclusion ­ USACE cannot limit the amount of subcontracting
layering that takes place on a given contract. However, under our new contracts, the
Corps is researching the effect of reducing the daily production rate of each contractor
and alio requiring the contractor to perform a percentage of the work using in house
forces as a way to reduce some of the tiering of subcontractors and improve
communication and control between the prime contractor and the actual installation
crews.

       We are also looking into the feasibility of using local Purchase Order Service
Contracts with a capacity of 5.5 million each (FAR 13.500], after an event occurs. These
contracts could be let relatively quickly to local companies. It should be noted that
depending on the size and severity of an event, availability of local contractors may be
limited and those contractors that are available may already be subcontractors to ACI
contractors.




                                           2




                                          23
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Culp
Dianna J. Pearson
John G. LaBelle
Jessica L. Gurtner
Jillisa H. Milner
